UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




     Office of the Executive Secretary
                   Survey


                Report No. OIG-AMR-60-09-02




                                              August 2009
INSPECTOR GENERAL




                NATIONAL LABOR RELATIONS BOARD

                       WASHINGTON, DC 20570

August 26, 2009

I hereby submit a survey of the Office of the Executive Secretary, Report No.
OIG-AMR-60-09-02. This survey was conducted to gather information about
the Office of the Executive Secretary (OES) to determine functions performed by
the office and internal controls that management exercises in carrying out its
mission.

We conducted this audit survey after concerns were forwarded to our office
regarding the OES’ performance of its case processing functions. During the
review, it was also reported to us by the Board’s managers that they were not
comfortable relying on the OES’ information technology systems, and they had
concerns about the case assignment process.

What we found was that the OES was generally assigning cases and affecting
the issuance of the Board’s decisions in a timely manner. What we also found
was a general lack of acceptance of ownership and responsibility for the case
processing data. This was most evident in the OES’ response to our internal
control findings.

Internal controls are the tools managers use to ensure that the mission of an
organization is met and to prevent and detect errors. During this survey, we
identified several internal control issues. Our internal control tests found
errors in participant information that may affect service to those participants,
errors in data elements in the Board's case reporting systems, and differences
in the two electronic case processing systems that made reconciling the two
systems difficult. When we looked at the case assignment process, we
identified a lack of documentation of procedures in the assignment of cases to
Board offices that could call into question the fairness of that process. When
we looked at the case processing reports, we found that the staff manipulated
the data and processes to create reports.
                                      TABLE OF CONTENTS
BACKGROUND ......................................................................................1

OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................2

FUNCTIONS OF THE OFFICE OF THE EXECUTIVE SECRETARY ...........3
  Administrative Processing of Cases ......................................................3
  Other Functions ..................................................................................3
INTERNAL CONTROLS OF THE OES ......................................................4
  Accuracy of Participant Data ...............................................................5

    Participant Data Testing......................................................................6
    Continued Use of Copied Affidavits of Service......................................8

  Accuracy of Case Data in Reporting System.........................................8

    Data Review in PCL ............................................................................8
    Case Data Accuracy in PCL.................................................................9

  Procedures for Processing Decisions ..................................................10

    Judicial Case Management System ...................................................10
    Stage of Case Processing Different ....................................................11
    Cases Not Closed in JCMS................................................................11

  Executive Secretary’s Case Management Systems Responsibility .......12

    Management’s Response ..................................................................13
CASE ASSIGNMENT.............................................................................13

USE OF MANUAL CASEHANDLING PROCESSES .................................16
  Case Cards........................................................................................16
  Manual Reports.................................................................................16
  Manual Assignment of Cases .............................................................17
OES DATABASE SYSTEM KNOWLEDGE ..............................................17

RECOMMENDATIONS..........................................................................18
APPENDIX

        Memorandum from the Executive Secretary, Draft Report, Office
        the Executive Secretary Survey, OIG-AMR-60, dated August 24,
        2009
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act of
1935 (NLRA), as amended.

Section 4 of the NLRA states that the Board shall appoint an Executive
Secretary. NLRB Regulations state that the Executive Secretary is the chief
administrative and judicial management officer of the Board; that he
represents the Board in certain situations; that he receives, dockets, and
acknowledges all formal documents filed with the Board; issues and serves the
Boards decisions and orders on the parties and their representatives; and
certifies copies of Board documents.

The Office of the Executive Secretary (OES) is divided into the immediate office;
the Docket, Order, and Issuance Section; and the Editorial and Publication
Services Section. The immediate office consists of the Executive Secretary, the
Deputy Executive Secretary, three Associate Executive Secretaries, and five
clerical employees. The Docket, Order, and Issuance Section consists of one
supervisor and four clerical employees. The Editorial Section consists of two
supervisory editors (one vacant) and six editors. According to the NLRB's
organizational charts, the number of positions in the OES decreased from 38 in
April 2004 to 23 in March 2009. The change of 15 positions includes 4
positions that were transferred to the Office of the Chief Information Officer
(OCIO). This reduction in staff was consistent with the NLRB Workforce Plan
that envisioned an increase in the use of technology and a reduction in the
reliance on paper for the filing of documents, processing of cases, and issuance
of Board decisions.

The OES maintains an electronic database of cases at the Board, the Pending
Case List (PCL) system. PCL services the Offices of the Board Members, OES,
Office of Representation Appeals (R-Unit), Office of the Solicitor, and the
Division of Information. The system generates reports used to manage cases
and collects and compiles historical data for external reporting. PCL also
interfaces with the Judicial Case Management System (JCMS), which is used
by the Board Member offices to electronically process documents. PCL will be
retired when the Next Generation Case Management System (NxGen) is
implemented for the Board in Fiscal Year (FY) 2010, but JCMS will remain and
will interface with NxGen.

During FY 2008, the OES assigned 462 cases to the Board Member offices, the
R-Unit, and the Office of the Solicitor and closed 490 cases. A total of 205
cases were pending at the end of FY 2008.
                 OBJECTIVE, SCOPE, AND METHODOLOGY

The purpose of an audit survey is to provide a general understanding of an
entity and its mission, important operational areas, the nature of management
controls, and potential weaknesses or problem areas. This differs from other
performance audits in that its focus is a broad understanding of the entity as
opposed to auditing to answer a more specific audit objective.

Consistent with the purpose of an audit survey, our objective for this review
was to gather information about the OES to determine functions performed by
the office and internal controls that management exercises in carrying out its
mission. Our scope was case processing activity performed by the OES during
FY 2008 and the first 9 months of FY 2009.

We interviewed staff in the OES and reviewed available documentation,
including the OES Case Processing Procedures, reports prepared by outside
consultants, position descriptions for OES staff, and the performance plans for
OES senior managers, to learn about functions performed by the office and
internal controls that management exercises in carrying out its mission. We
interviewed OCIO staff to learn about the automated systems used by the OES
in managing cases. We also interviewed management in Board Member offices,
the R-Unit, and the Office of the Solicitor to gain an understanding about how
the OES serves those Board offices.

We selected a judgmental sample of 25 cases closed during FY 2008 and
reviewed selected data elements in PCL to determine the accuracy of the data.
We selected a judgmental sample of 40 unfair labor practice (ULP) cases
pending before the Board on June 1, 2009, and tested whether the party
information used for serving documents was accurate. Given the size of the
closed and pending case populations, we determined that a statistical sample
would be larger than necessary for the purposes of this audit survey. Because
we did not use statistical sampling for the samples described above, we are
unable to project the results to the intended population. We reviewed the list
of cases pending as of March 20, 2009, and determined whether the cases were
reported in the proper stage of case processing. We determined the number of
cases assigned to each Board Member's office during FY 2008. We calculated
the time lag from when the Board approved a decision to when the decision
issued.

We obtained and reviewed manual and automated reports prepared by the
OES. We obtained lists of employees in the OES for the period from FY 2003
through FY 2008 from the Human Resources Branch and reviewed the OES'
trends in staffing.




                                       2
An Exit Conference with the Executive Secretary and the Deputy Executive
Secretary was held on July 16, 2009. Written comments to the draft report
were provided by the Executive Secretary on August 24, 2009.

This audit survey was performed in accordance with generally accepted
government auditing standards during the period December 2008 through July
2009. Those standards require that we plan and perform the audit survey to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit survey objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit survey objectives. We conducted this audit
survey at NLRB Headquarters in Washington, DC.


FUNCTIONS OF THE OFFICE OF THE EXECUTIVE SECRETARY

For the purpose of this report, we focused on the OES’ administrative case
processing functions.

Administrative Processing of Cases

The OES is responsible for the administrative processing of cases before the
Board. A case can be any of a number of different matters that require action
by the Board, the Office of the Solicitor, or the R-Unit. Examples of cases
include processing Administrative Law Judge (ALJ) decisions that are not
contested and appeals of ALJ decisions; motions for summary judgment and
reconsideration; processing formal settlements; processing sections 10(k) and
10(j) matters; appeals of representational hearing officers’ rulings; and requests
for review of Regional Directors’ decisions involving representation matters.

Although the OES does not decide the underlying issues involved in a
particular case, it does perform certain procedural functions. The OES receives
and assigns cases to the Board Member offices, prepares reports that provide
information regarding the status of the case, and processes the case for
issuance once the decision in a case is reached. The OES can also approve or
deny a party’s request for an extension of time and makes determinations of
whether filings to the Board are timely. The OES participates in committees
that have a purpose of keeping cases, primarily appeals of ALJ decisions,
moving through the decisional process.

Other Functions

Although not reviewed as part of this audit survey, the OES also performs the
following functions:



                                         3
 Handling correspondence on behalf of the Board, including Freedom of
  Information Act requests;

 Communicating, on behalf of the Board, with employees, employers, labor
  organizations, Congress, other agencies, and the public;

 Advising Regional Directors on behalf of the Board in representation cases;
  and

 Participating in the Agency’s committees.


INTERNAL CONTROLS OF THE OES

We focused our efforts during this audit survey on the OES' internal controls
because the perception that was reported to us by the Board’s managers was
that they were not able to access reliable data, they were not comfortable
relying on the OES’ information technology systems, and they had concerns
regarding the fairness of the case assignment process.

Internal control is a major part of managing an organization. It is made up of
plans, methods, and procedures that are used to meet the mission of the
organization and serves as the first line of defense in preventing and detecting
errors. Internal control, as opposed to luck or good fortune, helps the
managers achieve the desired results through effective stewardship of public
resources.

The OES has well documented procedures that provide very detailed
instruction for its clerical staff regarding the processing of case related matters.
These procedures are, however, only one element of internal control activities.
Other elements that are necessary in an organization such as the OES involve
documentation of management level procedures, risk assessments, controls
over processing information, and accurate and timely recording of events.

We identified several internal control issues that were evidenced by errors in
participant information that may affect service to those participants, errors in
data elements in the Board's case reporting system, and differences in the two
electronic case processing systems that made reconciling the two systems
difficult. We also identified a lack of documentation of procedures in the
assignment of cases to Board offices that could call into question the fairness
of that process.




                                          4
Accuracy of Participant Data

The NLRB's Rules and Regulations state that final orders of the Board in ULP
cases and ALJ decisions shall be served upon all parties. A party, as defined
by the Rules and Regulations, includes any person named or admitted as a
party, in any Board proceeding, including, without limitation, any person filing
a charge under the Act, any person named as respondent, employer, a party to
a contract, or any labor organization alleged to be dominated, assisted, or
supported in violation of the NLRA. The Rules and Regulations state that
papers shall also be served on any attorney or other representative of the party
who has entered a written appearance in the proceeding on behalf of the party.
If the party is represented by more than one attorney or representative, service
on any one will satisfy the requirement.

As part of its function of docketing, acknowledging, serving, and issuing
documents on behalf of the Board, the OES maintains a database of
participants in cases before the Board. The database is known as the Master
Data Management (MDM). The use of the MDM began in 2006 with the
importing and cleansing of PCL data for participants in Board cases and has
been extended to support Board and ALJ E-issuance. When NxGen is
implemented, the MDM’s participant data will be available to all Agency offices
who utilize NxGen in processing cases.

Participant information is entered in MDM in one of two ways. OES clerical
staff obtain participant address information from the Regional Office case files
or from the Case Activity Tracking System (CATS) and then manually input the
information into MDM. Participants who have signed up for E-service can
directly input their service information by using the NLRB's E-government
portal (mynlrb.gov). Staff in the OES noted that very few participants currently
enter his or her own information.

Support staff in the OES use the MDM data to create the affidavit of service
and to print the envelope labels to mail the documents served on the
participants. Procedures for affecting the service varied among the support
staff. Some support staff printed a new affidavit of service and labels from the
MDM each time a document was to be served while others used copies of the
affidavit of service that were maintained in file folders for each Regional Office
on shelves in the OES. During the audit survey, OES managers instructed the
support staff to cease using the copied affidavits.

The OES does not have written procedures requiring the review of the accuracy
of participant contact information and OES staff does not regularly review the
MDM to ensure that the support staff has correctly entered the information.




                                         5
Errors in the MDM participant information are generally discovered by the OES
when mail is returned as undeliverable. We are unaware of any basis to find
that the U.S. Postal Service’s inability to deliver mail is an internal control.
Additionally, a system dependent upon the failure of delivery by the U.S. Postal
Service will not catch the instances in which a party or their representative is
not mailed the required service in the first place.

Participant Data Testing

To illustrate the need for internal controls, we tested the accuracy of the
participant data in the MDM and found the following issues:

 One ULP case that is currently pending before the Board does not have the
  participant data entered into the MDM.

 In the sample of 40 cases pending before the Board, we identified 5
  participants, in 4 cases, that were listed in either the transcript or the ALJ
  decision that are not in the MDM. The roles of the parties are shown on the
  following table:

                           Party In Interest           2
                           Charging Party              1
                           Respondent                  1
                           Amicus Curiae               1

 In other participant testing, we found one case in which the MDM did not
  include one of the participants. We also identified four individuals or entities
  that were erroneously listed in the MDM as a participant in cases.

 In May 2009, OCIO staff sent letters to all participants in active cases before
  the Board that had not signed up for E-service. The purpose of the letter
  was to invite the participants to register for E-service of ALJ decisions. The
  letters were sent to 986 different participants. Letters to 45 participants
  were returned as undeliverable. The reasons for the return of the letters are
  summarized in the table below:




                                          6
Not deliverable as addressed / unable to forward                             20
Return to sender attempted – not known / unable to forward                   11
Forward time exp / return to sender                                           8
No longer at this address                                                     2
No such number / unable to forward                                            1
Refused / unable to forward                                                   1
Temporarily away / unable to forward                                          1
Insufficient address / unable to forward                                      1

  For eight of the letters that were returned, the envelope listed a forwarding
  address that could be used to correct the MDM and to serve the letter again.
  For the remaining 37 returned letters, further research would be needed to
  obtain the correct address.

 A comparison of the MDM and CATS showed that many participants were in
  one database, but not the other. For the purpose of this comparison, we
  excluded entries in which the name changed between the two systems, but
  the address remained the same. The results of the comparison are shown
  on the table below:

                                            In CATS, but    In MDM, but
                                             not in MDM      not in CATS
Participants in one database, but not in              83              177
the other
  Charging Party                                       10               27
  Charging Party Main Representative                   25               26
  Respondent                                           11               21
  Respondent Main Representative                       20               36
  Other Party Role                                     17               66
  No Role Designated                                    0                1

  The above differences show that the Regional Office and the Board's
  participant records are not consistent with each other. Given the age of
  some of the cases and the fact that a party’s representatives could change,
  we would expect to see deviations between the CATS and MDM for main
  representatives. We would not, however, expect to see deviations between
  the two systems for the charging party and the respondent.

 We identified multiple typographical errors in the MDM. These include
  misspelled cities, participants, and street addresses.




                                       7
Continued Use of Copied Affidavits of Service

As noted above, during the course of the audit survey, OES managers sent an
e-mail message to OES staff instructing them to eliminate the use of copied
affidavits of service. OES staff was told to create a new affidavit of service from
MDM when serving documents. After the e-mail message, however, we
identified one decision that was served with a copied affidavit of service. When
we compared the copied affidavit of service that was used, we found differences
between it and the MDM, including misspelled party names and one missing
party.

Accuracy of Case Data in Reporting System

PCL is the repository of case processing data for the Board Member offices,
OES, R-Unit, and the Office of the Solicitor. PCL should provide managers with
a wide variety of reports that identify performance activity, case inventory,
stage of case processing, and Board Member positions.

Cases are entered into PCL when the case decision arrives at the Board. For
most of the cases, support staff in the OES inputs the case data into PCL,
including the initiation, the assignment of the case to an office and its staff,
and closing out the case at issuance. The Associate Executive Secretary for
Assignments inputs the issues being contested into PCL. Staff and supervisory
attorneys in the offices that were assigned the case input case information into
a notes field and a "blog" field that has been recently added to PCL. JCMS
provides data regarding the stage of case processing through an interface with
PCL as transactions are performed in JCMS. The R-Unit's support staff input
data for its cases from receipt of the case until the decision and order is ready
to issue.

Data Review in PCL

The OES does not have written procedures requiring the review of data
accuracy and OES staff does not regularly review or reconcile the PCL or JCMS
data to determine whether it is complete and accurate. Instead, the OES relies
on the end users of the data to inform the OES that data is incorrect. To
facilitate reporting of errors, the Executive Secretary has a standard request
when transmitting reports stating that if errors are found in the reports that
corrections be submitted to him. The staff assigned to the case can also
identify errors by submitting a "PCL Fix" report to an e-mail account that is
monitored by OCIO staff responsible for PCL. System generated error files
relating to the transfer of data from JCMS to PCL are also reviewed for
problems with the transfer.




                                         8
Although the system generated errors may be an internal control, there are no
written procedures regarding that review and standing alone it is insufficient
given the errors that we found. We do not consider the remainder of the items
listed as internal controls because they are passive in nature and shift the
burden for the data accuracy from the Executive Secretary to the Board
Members’ staffs. Asking others to perform part of your function simply is not
an internal control.

Case Data Accuracy in PCL

Although 5 of the 10 PCL data elements tested were generally accurate, a
number of errors were found in 5 data elements that are used to track the time
that cases are in the various stages of case processing. It appears that these
data elements would affect reports used to manage cases. The data fields with
significant errors are discussed below:

 The date that the initial action was held, which is the beginning of Stage II,
  was incorrect or undocumented in PCL in 11 of the 25 cases tested. In three
  cases, the date in PCL did not match the date of the action in JCMS. In each
  of these three instances, the data in PCL was listed as about 1 week earlier
  than the date listed in JCMS. Eight items tested did not include an entry in
  the data field. We verified that an initial action was held by reviewing JCMS
  to determine that later actions, such as being entered into Stage III or
  conformance, had been accomplished.

 For the date that circulation began, which is the beginning of Stage III, data
  in PCL did not match data in JCMS for 5 of the 25 cases tested. This is
  significant because JCMS is a source of the PCL data. For each of the five
  cases, the difference was less than 1 month.

 The date of conformance, which is the date that a draft decision is approved,
  was blank in PCL in 3 of the 25 cases tested;

 The date that a conformed draft was given to Board Member counsel was
  incorrect or undocumented in 3 of the 25 cases tested; and

 In 3 of the 25 cases tested, the date the case arrived at the Board was blank
  in PCL. This date usually represents the day that the ALJ decision is issued.




                                        9
Procedures for Processing Decisions

Judicial Case Management System

The Board uses an electronic system known as JCMS to process, track, and
manage its cases through the three stages of case processing. Stage I
represents the period from the assignment of a case to initial action, which is
when votes on the issues are obtained. Stage II represents the period from
initial action to the circulation of a draft decision. Stage III runs from the
circulation of a draft decision through the clearance of the draft decision.

Cases are not normally entered into JCMS until a bench memo summarizing
the issues is prepared by the Board Member's staff attorney. This is often after
the case has originally been assigned to a Board Member's staff by the OES.
Once the bench memo is prepared, the Board Member’s office assigned to the
case submits a form through JCMS requesting that the case be entered into
the system. The request form includes data fields that are populated from PCL.
By submitting the request, the PCL data is then transferred to JCMS and an e-
mail message is sent to the JCMS team notifying them that a new case needs
to be processed. A JCMS team member reviews the data, confirms that the
case is a new entry, and advances the case to the requested processing stage.
The JCMS team is comprised of OCIO staff.

Cases are moved through the different stages in JCMS as different transactions
are executed. For example, the posting of a draft moves the case from Stage II
to Stage III. JCMS provides data back to PCL regarding the stage of case
processing through an interface as the transactions are performed.

Staff in the OES stated that a problem with the data interchange between
JCMS and PCL sometimes brings inaccurate data into PCL. OCIO staff stated
that this has been a problem since the transfer was implemented. They stated
the process developed to fix the problem is to track and review the errors to
determine the cause and to correct the transaction. Corrective actions may
include reprocessing the transaction in JCMS or manually revising the
incorrect data in PCL. Staff in the OCIO stated that they have not yet
determined how to prevent this problem when NxGen is released for the Board.

The processing of a case in JCMS concludes after the decision has been
approved by Board Members. Staff in the OES stated that because case
processing beyond Board approval is not accomplished within JCMS, closing
the cases in JCMS is merely a formality to remove the case from work-in-
progress and to permit archiving. The OES stated that cases are closed in
JCMS two or more times a year. As a result, cases that are closed by the




                                        10
Board remain open in JCMS. Staff added that this process will continue once
NxGen is implemented.

Stage of Case Processing Different

In the Board Case Status Report derived from PCL, Board cases were reported
in the wrong stage of case processing in some instances. As of March 20,
2009, 168 of the cases pending before the Board were entered in JCMS. Of
these 168 cases, 14 were reported in the wrong stage of case processing in
PCL. These include:

 Five cases were listed as being in Stage II in PCL, but votes had not been
  obtained and entered into JCMS;

 One case was listed as being in Stage III in PCL, but a draft had not yet
  circulated;

 Two cases were listed as being in Stage II in PCL, but a draft had circulated;

 Two cases were listed as being in Stage I in PCL, but were closed in JCMS;
  and

 Four cases were listed as being closed or in conformance in JCMS, but were
  in Stage I in PCL. In each of these cases, an order was processed through
  JCMS and was issued, but did not represent a final order in the case.
  Because the orders were procedural rather than decisional, the processing of
  the order in JCMS did not change the stage of the case and therefore does
  not accurately reflect the current status of the case.

Because the case status differed between PCL and JCMS, managers will be
unable to reconcile the number of cases in each stage between the reporting
system and the document processing system.

Cases Not Closed in JCMS

As of April 6, 2009, we found 29 cases that were listed as being in one of the
three case processing stages in JCMS were already resolved through the
issuance of a decision by the Board, a settlement agreement, or the withdrawal
of the case. These cases were all closed in PCL. This is shown in the table
below:




                                        11
                                    Fiscal Year of Board Resolution
Stage   of Processing                  2007          2008        2009      Total
Stage   I                                  6            6           2        14
Stage   II                                 3            1           0         4
Stage   III                                7            1           3        11
Total                                     16            8           5        29

Executive Secretary’s Case Management Systems Responsibility

At the Exit Conference, the Executive Secretary and his staff stated that with
the implementation of JCMS, the OES no longer controls the data in PCL
regarding the current status of the Board’s cases. They are, in fact, users of
the system and rely on the Board staff to process the cases in JCMS and to
report data problems to them. They explained that JCMS is a transactional
system and that data is collected as a processing event occurs rather than
clerical staff entering data. They stated that the systems, particularly the
interface between the two systems, do not work as they were intended and that
they are frustrated by the problems they have encountered with the systems
that have not been resolved. They also noted that in the past when attempts
were made to correct data, they could not do so without the assistance of OCIO
staff. They also stated that the responsibility for the data in the systems rests
with the Board Members’ staffs and the OCIO and that once the Chief
Information Officer (CIO) can assure them that the data is accurate they will
rely upon the systems. Despite these statements, they claim PCL and JCMS as
examples of internal controls that they have implemented.

These assertions by the Executive Secretary and his staff are contrary to the
duties and responsibilities of the Executive Secretary as set out in the Agency’s
regulations, as described above, and the Executive Secretary’s Position
Description. That Position Description states that the OES is responsible for
directing and coordinating the flow of cases through the decision making
process. That responsibility includes the establishment and maintenance of
current records as to the number and types of cases, stages of processing, and
age of cases pending before the Board for the purpose of planning the
assignment of cases, and adjusting internal procedures to handle case
processing workloads. The OES also directs and controls the computerized
system of information retrieval for case management improvement and
forecasting future needs and plans.

The assertions of the Executive Secretary and his staff are also contrary to the
Federal statutes that establish the duties and responsibilities of a CIO. By
statute, the CIO’s duties with regard to information technology systems
include:




                                        12
      Providing advice and other assistance to the head of the executive agency
       and other senior management personnel of the executive agency to
       ensure that information technology is acquired and information
       resources are managed for the executive agency in a manner that
       implements the policies and procedures of [Federal statutes] and the
       priorities established by the head of the executive agency;

      Developing, maintaining, and facilitating the implementation of a sound,
       secure, and integrated information technology architecture for the
       executive agency; and

      Promoting the effective and efficient design and operation of all major
       information resources management processes for the executive agency,
       including improvements to work processes of the executive agency.

The CIO’s duties do not include responsibility for the accuracy of the data in a
particular system. Rather, it is the duties of the Executive Secretary that
clearly include that responsibility. This division of duties is consistent with the
guidance provided by the Office of Management and Budget (OMB) in its
Circular No. A-130, Transmittal Memorandum #4, Management of Federal
Information Resources. In that circular, OMB states that the user of Federal
information resources must have skills, knowledge, and training to manage
information resources, enabling the Federal government to effectively serve the
public through automated means and those Federal managers with program
delivery responsibilities should recognize the importance of information
resources management to mission performance.

Management’s Response

In the written response to the draft report, the Executive Secretary now states
that OES owns the data and the OCIO owns the systems. The Executive
Secretary also concurs with our recommendation to establish internal controls.

CASE ASSIGNMENT

We found no written procedures or other internal controls regarding the
assignment of cases to Board Member staffs. When we first discussed this
issue with an OES manager, we were told that cases are assigned to Board
Members’ staffs on a random basis with exceptions made for long record cases
(transcripts over 1,000 pages) and cases in which the Board Member has
previously worked on the case. OES managers noted that occasionally a Board
manager will ask for a case because the case intake is down and the staff
needs work to do. When we interviewed Board Members’ managers, we were




                                         13
told that during the latter part of FY 2008 it was noticed that certain staffs
were assigned more cases than the other staffs. Staff attorneys also told us
that they perceived that more cases were being assigned to certain staffs than
others. We were also told that after bringing this to the attention of the OES,
the situation appeared to be resolved.

We reviewed the case assignments for FY 2008 and determined that the
assignment of cases did not appear to have been on a random basis as
described to us by OES staff. The table below shows what we found by looking
at the number of ALJ decisions in ULP cases, excluding remands and long
record cases, and the number of representation cases (R cases) assigned to
each of the five staffs during FY 2008:

  Office        ALJ Decisions            R Cases                  Total
               Amount   Percent     Amount      Percent    Amount     Percent
Member     1       37       34.3          16        28.1         53        32.1
Member     2       27       25.0          15        26.3         42        25.5
Member     3       17       15.7           9        15.8         26        15.7
Member     4       15       13.9          10        17.5         25        15.2
Member     5       12       11.1           7        12.3         19        11.5
Total             108      100.0          57       100.0        165       100.0

The OES responded to our findings in two ways. The Executive Secretary
acknowledged that assignment of cases had not been done in the manner in
which the OES had historically assigned cases and that he took action to
correct the case assignment process once it was brought to his attention. He
also stated that his staff provided the following explanation:

      That FY 2008 was a unique period because there was a two Member
       Board and the staffs were divided between the two Members – with one
       staff actually divided in half;

      That one Member’s front office requested that cases be given to them and
       that they would then assign the case to the appropriate staff;

      There were staff imbalances and the significant need for work by some of
       the staffs, particularly Members 1 and 2, that necessitated a temporary
       deviation during FY 2008 from the normal “rotating, seriatim” of
       assigning cases that had always been used by the OES;

      There were numerous telephone calls and e-mail messages from Deputy
       Chief Counsels for Members 1 and 2 urgently asking for new cases for




                                        14
       their staffs, but he did not receive similar requests from the Deputy Chief
       Counsels for Members 3, 4, or 5.

      That the cases were assigned on a random basis because they were not
       assigned based upon issues presented in the case; and

      That the perceived deficiencies in the assignment process have been
       resolved pursuant to a meeting held between OES staff and the Deputy
       Chief Counsels early in FY 2009.

According to the data used by the OES, the case assignment looked like this:

Offices       5 Member Board        Offices                     2 Member Board
              Amount Percent                                    Amount Percent
Member    1       11      29        Members 1, 2, and 3 ½          115      68
Member    2        6      16        Members 3½, 4, and 5            53      32
Member    3        7      18
Member    4        8      21
Member    5        6      16
Total             38     100                                        168       100

Also, according to the data from the OES, the total staff size for Members 1, 2,
and 3½ was 23 and for Members 3½, 4, and 5 it was 19.

We are not making any judgment or suggestion regarding the method that the
Board determines is appropriate for the assignment of cases. Our points are:

      That the deviation from the historical method of assigning cases, if one
       exists, was not approved by the Board;

      The Executive Secretary does not have written procedures regarding the
       assignment of cases or any controls regarding that process;

      That the subordinate manager who engaged in the deviation did not
       notify or seek the approval of the Executive Secretary; and

      The Executive Secretary did not discover this problem despite the fact
       that information regarding the assignment of cases was available to him.




                                         15
USE OF MANUAL CASEHANDLING PROCESSES

Staff in the OES and Board managers stated that because of a lack of reliability
in PCL, they continued to use manual processes to manage cases. These
manual processes include the use of case cards and reports.

Case Cards

Staff in the OES stated that while most of the data used to monitor a case is in
PCL, they continue to use the paper case cards because not all of the
information is available electronically. The staff cited examples such as the
ruling by the Associate Executive Secretary on a request for an extension of
time and any information regarding a section 10(j) matter. They also stated
that the manual case cards are used to maintain party information. They
added that the OES will switch from the manual case cards when there is
assurance from the OCIO that all necessary information on the case cards is
captured electronically.

We found that all of the data on a case card is or could be recorded in PCL or
the MDM. The examples cited by OES staff as not being in PCL were either in
the MDM or could be recorded in the notes section of PCL.

Manual Reports

The OES prepares some reports manually. One such report is the Monthly
Balance Sheet, which is a memorandum distributed to the Board showing the
total cases pending, received, and disposed of by the Board during the previous
month. The Monthly Balance Sheet is manually prepared by OES clerical staff,
despite the fact that this information is available electronically through the
Board Case Status Report, which shows real-time statistics related to Board
case processing. Staff in the OES stated that the Monthly Balance Sheet does
not always agree with the Board Case Status Report.

When we compared the manually prepared Monthly Balance Sheet and the
electronically prepared Board Case Status Report, we found that they did not
agree in any of the months between September 2008 and March 2009.
Differences were present in the beginning and ending balances of cases
pending before the Board, the cases assigned during the month, and the cases
issued during the month. In most cases, the Board Case Status Report showed
more cases than the Monthly Balance Sheet. Additionally, differences existed
between the beginning and ending balances in the Board Case Status Report.

To prepare the Monthly Balance Sheet, staff in the OES tallies the number of
cases that are assigned and issued during a month and categorizes the cases



                                        16
on a manual list. The staff also obtains the list of pending cases from PCL for
each Board Member and confirms with the Deputy Chief Counsels that the
cases are in the correct stage. The cases are then counted and summed to
ensure that the cases pending at the beginning of the month plus the cases
received less cases disposed of equals the cases pending at the end of the
month.

Staff stated that data in PCL is corrected as part of the process to prepare the
Monthly Balance Sheet. These corrections include moving a case to the correct
stage or inputting the Board Member assignment. The staff also stated that
data in PCL may be deleted so that the case will be properly reported for
recording on the Monthly Balance Sheet. Once the report issues, the data is
then entered back into PCL. Another manipulation of data involves case
assignment information. Assignment information regarding cases assigned at
the beginning of the month is not entered until after reports used to prepare
the Monthly Balance Sheet are run.

OES managers cited this process as a form of internal control. We do not agree
that deleting and reentering data or delaying the recording of information are
proper forms of internal control. To the contrary, these types of data
manipulation create the opportunity for data loss and errors. As such, these
efforts to create the Monthly Balance Sheet cannot be viewed as an effective
internal control.

Manual Assignment of Cases

The OES manager with responsibility for the assignment of cases records the
information in a 6” by 9” “Steno Notebook.” When we were discussing the
assignment of cases with the manager, he brought this notebook with him.
When we asked OCIO staff if there was any reason why case assignment could
not initially be recorded in JCMS by OES staff, the response was that they were
not aware of any reason. OCIO and OES staff also stated that a module was
designed in JCMS for case assignment and that the OES has never used it.


OES DATABASE SYSTEM KNOWLEDGE

Initially, we were surprised at the extent to which the OES relies upon OCIO
staff for electronic case management. During the course of the audit survey,
we were often sent to OCIO staff by the OES for information regarding the more
technical aspects of the electronic case processing systems. We also observed
OCIO staff performing functions/tasks that we would expect to be performed
by OES staff.




                                        17
There is nothing inherently wrong with the OES relying on OCIO staff to the
extent that it does, except that it may have contributed to the Executive
Secretary’s perception, as stated at the Exit Conference, that he was not
responsible for the accuracy of the data in the case management systems.
Also, the extent to which the OES relies on the OCIO puts it in competition for
the limited OCIO resources. It also hinders the OES’ acceptance of the
information technology systems and its ability to leverage those systems in an
effort to operate more effectively.


                             RECOMMENDATIONS

We recommend that the Executive Secretary:

   1. Work with the Board to evaluate the OES’ organizational structure,
      duties, and staffing needs.

   2. Develop a set of internal controls to ensure that data in the MDM and the
      Board's case processing and reporting systems is accurate – this process
      should be with a view towards the NxGen system.

   3. Develop procedures for the assignment of cases and internal controls to
      ensure that those procedures are followed.

   4. Cease using the copied affidavits of service.




                                         18
APPENDIX
